)

No.

IN THE

Supreme Court of tfjc Umteti States
Josue Portillo,
Petitioner,
v.

United States of America,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

REDACTED PETITION FOR
A WRIT OF CERTIORARI

Joseph W. Ryan, Jr.
Counsel of Record
Melville Law Center
Counsel for Petitioner
225 Old Country Road
Melville, New York 11747
516-629-4896
joeryanlaw@earthlink.net
January 12, 2021

QUESTION PRESENTED.

Absent proof of incorrigibility, can a district court sentence a defendant to fifty-five
years imprisonment without parole for participating in a execution style gangland
murder under this Court’s holding in Miller v. Alabama., 567 U.S. 460 (2012) ?

11

TABLE OF CONTENTS
Page(s)

QUESTION PRESENTED ........ ........... ..............

1

TABLE OF CONTENTS........................................

li

TABLE OF AUTHORITIES.............. .......... .........

in

PETITION FOR A WRIT OF CERTIORARI......

1

OPINION BELOW...... ..........................................

1

JURISDICTION.....................................................

1

CONSTITUTIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE.......... ...................

2

A.

The MS-13 Quadruple Murders..............

2

B.

The Prosecution and Transfer Hearing

2

C.

The Sentencing Proceeding.................

5

D.

The Second Circuit Decision.................

8

REASONS FOR GRANTING THE WRIT

8

CONCLUSION......................................... ...

13

APPENDIX................. ................................

14

Ill

TABLE OF AUTHORITIES
Page(s)
Cases
8

Jones v. Mississippi No. 18-1259, sub judice before this court

i, 6, 7, 8, 9, 10, 11

Miller v. Alabama., 567 U.S. 460 (2012)
Montgomery v. Louisiana, 136 S. Ct 718, 736 (2016)
United States v, Briones, 929 F,3d 1057, 1066 (2019)

6, 8, 11, 12
10

United States v. Garcia, 666 F.App’x 74 ( 2d Cir. 2016)

9

United States v. Grant, 887 F.3d 131 (2018),
reh’g en banc granted, opinion vacated, 905 F.3d 258

9

United States u. Juvenile Male, 327 F. Supp 3d 573 (2018)

5

United States v. Portillo,
2020 U.S. App. LEXIS 36989, _ F.3d

1

2020 WL 6878443

United States v. Sparks, 942 F.3d 748 (2019) cert den. 140 S. Ct. 1281

9

Statutes
18U.S.C. § 3553 (a)
18U.S.C. § 5032.....
28 U.S.C. § 1254 (1)

9
3

1

Other Authorities
Life Sentences in the Federal System,
United States Sentencing Commission (2015)

10

1
PETITION FOR A WRIT OF CERTIORARI

Petitioner Josue Portillo, an inmate currently incarcerated at FCI in
Coleman, FL respectfully petitions this Court for a writ of certiorari to review the
decision of the U.S Court of Appeals for the Second Circuit, dated November 24,
2020 which affirmed the district court’s fifty-five-year sentence imposed upon
Petitioner.
OPINION BELOW
On November 24, 2020, the Second Circuit affirmed Petitioner’s sentence and
entered judgment in the Eastern District of New York. The Court’s opinion is
reported in United States v. Portillo, 2020 U.S. App. LEXIS 36989,_F.3d__ , 2020
WL 6878443 and annexed in the Appendix at A1 .
JURISDICTION
The Second Circuit Court of Appeals entered judgement on November 24,
2020. This Court has jurisdiction under 28 U.S.C. §1254 (1).
CONSTITUTIONAL PROVISIONS INVOLVED
The Eighth Amendment to the U. S. Constitution states: “Excessive bail shall
not be required, nor excessive fines imposed, nor cruel and unusual punishments
inflicted.”

2

STATEMENT OF THE CASE
A.

The MS-13 Quadruple Murders1. In April of 2017, Petitioner was

fifteen years and eleven months old and a member of the MS-13 gang on Long
Island when he participated in the execution-style murders of four members of a
rival gang. The original plan was to kill a person identified as “Witness 1,” with
whom Petitioner had had a previous altercation.

Petitioner and other MS-13

members instructed two females to invite Witness 1 to a public park in Central
Islip, New York, to smoke marijuana. After learning that Witness 1 had invited four
others to accompany him, Petitioner and members of his gang decided to kill all
five, believing that all of them were members of the rival gang. Petitioner sought
and obtained a gang leader’s approval to commit the murders. He, along with
several gang members, surrounded the suspected rival gang members and, after
Witness 1 escaped, killed the remaining four, using machetes, an ax, knives, and
tree limbs. Portillo wielded a machete.
B.

The Prosecution and Transfer Hearing. Petitioner fully confessed

to his participation in the murder scheme when first confronted by the FBI case
agent when he was in custody at the Shenandoah Valley Juvenile Center for
illegally entering the United States.
Petitioner fully cooperated by identifying others who had participated in the
slaying. After being arraigned on juvenile information charging him with the
murders, Petitioner further cooperated by granting four separate interviews

Petitioner adopts the Second Circuit version of the offense.

3

consuming ten hours to federal prosecutors and agents.

But no cooperation

agreement was offered Petitioner, nor was there any claim that Petitioner’s
cooperation was anything but truthful.
On June 19, 2018, the district court held a Transfer Hearing to decide the
government’s motion to prosecute Petitioner as an adult pursuant to 18 U.S.C. §
5032. The government called no witnesses, but offered the Psychiatric Report of
Eric Goldsmith M.D., a forensic psychiatrist appointed pursuant to the Criminal
Justice Act.2 Defense counsel called Dr. Goldsmith to establish the following facts.
Petitioner was born out of wedlock in Lolotiquillo, El Salvador. His father
abandoned his 23-year-old mother, Vilma Portillo, when she was three months
pregnant. A165.

Petitioner was reared by his 68-year maternal grandmother.

When Petitioner was 3-years old, his mother, emigrated to the United States where
she eventually settled down in Central Islip, N.Y. with her partner, Jose Diaz, and
Genesis, their daughter. A88-90
By age fourteen Petitioner had been smoking marihuana since twelve and
became a concern for his mother and grandmother who arranged to have Petitioner
smuggled into the United States.A90. The odyssey proved traumatic:
The transition from rural El Salvador to New York appears to
have been a difficult and destabilizing one for Mr. Portillo. He
endured significant trauma during the journey, and had a hard
time adjusting to the crowds and academics in his new school. In
addition, the lack of relationship with his mother left him more
isolated and with few sources of support in a country where he
2 Eric Goldsmith: M.D. is certified by the American Board of Psychiatry and
Neurology Diplomate in Psychiatry with Certification in Subspecialty of Forensic
Psychiatry.

4
did not speak the language. This destabilization left him
vulnerable to dangerous influences, particularly in the form of
an older cousin who was already a member of the MS-13 gang
and had also immigrated to the U.S. from Lolotiquillo.
A90,95.
When Petitioner eventually arrived in Central Islip, he had difficulty
adjusting he felt “uncomfortably estranged from his mother. He says he ‘did not
know her,’ ‘it was weird.’” A90. In 8th grade Petitioner joined MS-13 with the aid of
his cousin because “he had a desire for respect, and he believed that the people in
his area in the U.S. had respect for the gang members...He also stated that he
thought that the gang would allow him access to friends, women and marihuana,
which he had been using regularly since his arrival in the U.S.” A161. Petitioner
understood that “in order to be promoted in MS-13, it was necessary to kill a
member of a rival gang.” A90-93
Dr. Goldsmith made the following diagnoses: (1) Oppositional Defiant
Disorder, (2) Cannabis Use Disorder and (3) Adolescent Anti-Social Behavior. A94
With respect to immaturity Dr. Goldsmith found:
Mr. Portillo seemed less anxious and distressed than would
usually be expected, given the gravity of his charges. This is
potentially due to the fact that he appears to be immature for
his age. This immaturity is manifested in his difficulty
understanding or expressing his motivations for his behavior
(such as to join MS-13), the superficiality with which he views
his current situation, and the self-involved way in which he
frames events leading to his arrest, and his difficulty in
considering the ways his actions are likely to impact others.
A96. Emphasis added.
The district court pressed Dr. Goldsmith to opine whether Petitioner would
benefit from the treatment programs offered in a juvenile detention facility:

5
THE COURT: All right. But you don’t know the likelihood that
he’s going to be successful in the program, right?
THE WITNESS: I don’t know the likelihood of whether he would
be successful. I do know that he does not evidence the kind of
hurdles, barriers to being successful. So he doesn’t evidence
that uncooperative psychiatric problems that would — and
intelligence difficulties that would be barriers to
benefiting from the kinds of services and treatment available to
him in a juvenile facility.
A73 Emphasis added.
Dr. Goldsmith concluded: “If Josue Portillo is able to successfully complete the
treatment, education, and vocational components of juvenile treatment program, his
risk of recidivism would be significantly reduced.” A97
On August 6, 2018, the district court granted the government’s motion to
prosecute appellant as an adult. United States v. Juvenile Male, 327 F. Supp 3d 573,
586 (2018):
The Court does not believe that his immaturity, brain
development and excessive use of marihuana adequately explain
his alleged violent tendencies in this case (including his alleged
premediated, pivotable role in the murders)...In short, the Court
concludes that the defendant’s rehabilitation potential is low,
and the juvenile system is imply ill-equipped and woefully
insufficient, under the circumstances of this case to adequately
address, in the interest of justice, these alleged violent crimes
when considered in conjunction with other statutory factors.
C.

The Sentencing Proceeding. On August 20, 2020, Petitioner waived

indictment an entered a plea of guilty to a superseding indictment charging him
with the murders. The Probation Department recommended a life sentence in
accordance with the guidelines; the government recommended a sixty-year
sentence; and Petitioner’s counsel recommended a reasonable sentence taking into

6
account Petitioner’s transient immaturity and his rehabilitation potential in
accordance with the Miller and Montgomery decisions.

The district court resumed the public phase of the sentencing at which the judge
heard compassionate pleas from both the mother of the murdered victim, Michael
Lopez, and from Petitioner who stated the following:
Honorable Judge Bianco, I expect a severe sentence because as a
MS-13 member what I did to Michael Lopez and others, but
please do not put me in jail for the rest of my life. I know that
what I have done was very wrong. I apologize for my heinous
crime and will always pray for the families of the victims, none
of whom deserved to die. I respectfully pray that I be given a
second chance to prove to your Honor and the victims’ families
that I can be a different person than I was at 15. I pledge to
make you proud. I now realize how selfish it was for me to be
consumed by soccer, girls and marihuana offered by MS-13. I
will learn a trade or skill in prison that will enable me to help
others after my deportation to El Salvador. I will prove to your
Honor that I can become a law-abiding person helping others. I

7
have every confidence that your Honor appreciates my personal
circumstances at 15.
A124-25
In pronouncing sentence, Judge Bianco stated the following:
This court has seen approximately 50 murders on Long Island
committed by the MS-13 gang over the past ten years.3 There is
no clearer evidence of how dangerous this gang is and how
dangerous individuals who choose to join this gang, including
juveniles, present to the community... Obviously I know I have
the discretion to give him less than 55 years in light of his
age...in light of his age and other factors I pointed to and I went
back and read the Miller decision because the Supreme Court,
as Mr. Ryan noted, did emphasize that ...a juvenile’s brain is
different. Obviously, I accept that science...Although a 15 year
old’s brain is different and Dr. Goldsmith concluded this
defendant is immature and his marihuana use compounded his
lack of judgment, I don’t believe that they explain the
defendant’s conduct in this case...This is not a teenager who was
confronted with an evolving situation that happened on a
moment’s notice and had to make a quick decision about
whether to participate or not. This was something that
developed in advance...Finally, on efforts of rehabilitation and
likelihood of those efforts, the records showed that there were
efforts in the school through the community reinvestment
program to try to get him to disassociate himself with the gang
and they were unsuccessful. I don't mean to suggest by
noting that that means he could never change or turn his
life around. I don't believe that...But even assuming that
that would dissipate over some time prior to the 55 years, I
believe the other factors that I pointed to warrant this
sentence in any event. I don't believe the Miller factors are
strong in this case are outweighed by the other factors
that I have pointed to. But what I am trying to do by this
sentence, reflecting again at some point I believe at an advanced
age he would pose a danger to the community and because of his
acceptance of responsibility I’m trying to fashion this 55-year
sentence given the possibility of not dying in jail, having some
3 All MS-13 prosecutions in the Eastern District of New York were assigned to U.S.
District Judge Joseph F. Bianco before the Judge was elevated to the Second
Circuit.

8

period of what Mr. Ryan referred to as his last stage of life, to
have the hope, although not the certainty, of not dying in jail.
Emphasis supplied. A139-45

D.

The Second Circuit Decision. The Court’s 14-page Opinion upheld

the “unquestionably severe” sentence as “substantively reasonable.” The Opinion
notes that the Judge departed downward because of Petitioner’s youth after
consideration of the Miller factors, but notes the “unfortunate consequence” that
Petitioner will be denied the opportunity to prove that he is capable of change due
to the 1987 elimination of federal parole, citing this Court’s holding that “children
who commit even heinous crimes are capable of change.” Montgomery v. Louisiana,
136 S. Ct 718, 736 (2016). Al-14.

REASONS FOR GRANTING THE WRIT4
District court judges need guidance on whether and how to apply the
Miller factors when confronted with a sentencing of a juvenile-defendant
for homicide because there exists confusion, uncertainty and errors when
Miller v. Alabama, supra, and
applying this Court’s holdings in
Montgomery v. Louisiana, supra.
This Court has never ruled on whether the Eighth Amendment requires a
finding of “incorrigibility” before sentencing a federal defendant to a life-long
sentence for committing the crime of homicide as a juvenile. Given the absence of
4 We note this Court has pending before it, Jones v. Mississippi No. 18-1259, sub
judice, following oral argument on November 23, 2020 concerning whether the
Mississippi sentencing court was required to find that the Jones was “incorrigible”
before imposing a life without parole sentence upon a juvenile-defendant.

9
federal parole, the rationale and objective of the Miller holding may become
undermined unless this Court clarifies the applicability of its holding.
The existing confusion among the federal courts was made eminently clear by
the Fifth Circuit recent decision, United States v. Sparks, 942 F.3d 748 (2019) cert
den. 140 S. Ct. 1281. The Circuit held that while the district court was not required
to apply the Miller factors when imposing a thirty-five-year sentence upon a
juvenile, it remains unclear whether a court must find a juvenile ” incorrigible”
before imposing a life sentence.
The Sparks opinion confirms

that there remains

“some confusion” over

whether application of the Miller factors should be made independent of, or in
conjunction with, the sentencing factors required of an adult in 18 U.S.C. § 3553
(a). Sparks referred to a Second Circuit decision

United States v. Garcia, 666

F.App’x 74 ( 2d Cir. 2016) which upheld a life sentence imposed upon a seventeen
year old by Judge Bianco for the defendant’s participation in a separate MS-13
brutal gang murder on Long Island based upon 3553 (a) factors.
Sparks also pointed out how a Third Circuit panel decision was reversed
because it attempted to adopt a rule that would have required a finding of
“incorrigibility” if the length of the juvenile’s sentence was equivalent to the
national age of retirement. See: United States v. Grant, 887 F.3d 131 (2018), reh’g
en banc granted, opinion vacated, 905 F.3d 258.
Finally, Sparks cited the Ninth Circuit en banc decision which remanded a
life sentence imposed upon a juvenile who committed felony-murder. Eleven out of

10
thirteen judges found that the district court “sentencing remarks focused on the
punishment warranted by the terrible crime Briones participated in, rather
than whether Briones was redeemableUnited States v, Briones, 929 F, 3d
1057, 1066 (2019). Emphasis added.
Why the Miller rationale (“how children are different, and how those
differences counsel against irrevocably sentencing them to a lifetime in prison”)
should not apply to a de facto life sentence must be resolved. Petitioner, now
nineteen years old, will continue serve his sentence until he is seventy-one
years old. The U.S. Sentencing Commission has declared:
the length of sentence imposed is so long that the sentence is, for
all practicable purposes, a life sentence and likely intended to be
such by the judge who imposed it...For purposes of this analysis,
a sentence length of 470 months or longer was used as a proxy to
identify cases in which a de facto life sentence had been
imposed.”5
Petitioner’s life expectancy is seventy-five.
As to “incorrigibility,” the district court wrote that Petitioner is “not likely to
be successful in rehabilitation and that his current state of recidivism is high...The
Court views the defendant as an extremely dangerous individual from whom society
must be protect for an extended period of time.” See Statement of Reasons. A159.
But this “reason” was flatly contradicted by the record. At the transfer hearing Dr.
Goldsmith explained:

5See: Life Sentences in the Federal System, (USSC 2015):
https://www.ussc.gov/sites/default/files/pdf/research-and-publications/researchproiects-and-survevs/miscellaneous/20150226 Life Sentences at 10.

11
Being, you know, outside of a structured facility environment,
his decision-making at that time, of course, was to abandon the
positive forces of the school and education and participate in the
gang. There’s no evidence from a psychiatric perspective,
there’s no hurdles that I can see that in a structure
environment that he not learn, he could not be fully
[conversant] in English, and be educated and then
participate in vocational training to give him some skills,
that he could be marketable as an employable person
A67 Emphasis added. A social worker independently found Petitioner to be a “very
resilient adolescent who desires to do well and improve his school behavior and drug
use.” A99. Even the district court’s sentencing comments counter “incorrigibility”:
I don’t mean to suggest by noting that that means he could
never change or turn his life around. I don’t believe
that...But even assuming that that would dissipate over some
time prior to the 55 years, I believe the other factors that I
pointed to warrant this sentence in any event.
A144
The consequence of the Second Circuit affirmance will effectively eliminate
any “hope for some years of life outside prison walls [which] must be restored.”
Montgomery at 737. For fifty-two more years at a taxpayer expense well over Two
Million Dollars, Petitioner will be warehoused in the custody of the U.S. Bureau of
Prisons. And should Petitioner survive, he will not be met by any surviving family
members upon his arrival in his native El Salvador, pursuant to his mandatory
deportation.
This result contravenes the very objectives of Miller and magnifies the
“unfortunate consequence” of the elimination of federal parole because:
if parole were available, there would be two consequences worth
considering. On the one hand, Portillo’s custodians would have
an effective means of encouraging his observance of prions

12
regulations, resulting from his awareness that misconduct
would jeopardize any hope of parole. On the other hand, Portillo
would have an incentive to obtain an education, participate in
rehabilitative programs, and just possibly demonstrate, at some
point in the future, that he has matured beyond the seemingly
incorrigible person of his youth to become an adult whom parole
authorities might reasonably think should be permitted to rejoin
society.
As the Second Circuit noted: “children who commit even heinous crimes are capable
of change.” Citing Montgomery v. Louisiana, 136 S. Ct 718, 736 (2016). A13-14

13
CONCLUSION
Certiorari should be granted to clarify whether the Eighth Amendment
requires a district court to make a finding of “incorrigibility” before imposing what is
tantamount to a life sentence without parole upon a juvenile for committing murder
at fifteen years of age. .
Dated: Melville, New York
January 12, 2021
JOSEPH Wj £YAN,
By:

P.C

'a

JOSEPH Wl RYAN, JR. (2408)
Attorneys for Petitioner
JOSUE PORTILLO
Melville Law Center
225 Old Country Road
Melville, New York 11747
516 629 4896
joeryanlaw@earthlink.net

